t

t

APPENDIX-A

\

■?

\

Loggins v. Pilshaw, 838 Fed. Appx. 323
Copy Citation
United States Court of Appeals for the Tenth Circuit
December 1,2020, Filed
No. 20-3007
Reporter
838 Fed. Appx. 323 * I 2020 U.S. Ann. LEXIS 37486 **
KEVIN D. LOGGINS, SR., Plaintiff - Appellant, v. REBECCA L. PILSHAW, District Court
Judge, Sedgwick County District Court; DIANA NICHOLS, Court Reporter, Sedgwick County
District Court; DAVID KAUFMAN, Assistant District Attorney, Sedgwick County District
Attorney Office; LOU ANN HALE, Court Reporter, Sedgwick County District Court; ERIC R.
YOST, District Court Judge, Sedgwick County District Court; J. PATRICK WALTER, District
Court Judge, Sedgwick County District Court; ANTHONY J. POWELL, JR., District Court
Judge, Sedgwick County District Court; PAUL W. CLARK, District Court Judge, Sedgwick
County District Court; JAMES R. FLEETWOOD, Chief Judge, Sedgwick County District Court;
HENRY W. GREEN, Judge, Kansas Court of Appeals; (FNU) LEWIS, Judge, Kansas Court of
Appeals; JOHN J. BUKATY, District Court Judge; MELISSA T. STRANDRIDGE, Judge,
Kansas Court of Appeals; STEPHEN D. HILL, Judge, Kansas Court of Appeals; PATRICK D.
MCANANY, Judge, Kansas Court of Appeals; (FNU) BRAZIL, Retired Judge, Kansas Court of
Appeals; G. GORDON ATCHESON, Judge, Kansas Court of Appeals; THOMAS MALONE,
Judge, Kansas Court of Appeals; (FNU) ELLIOTT, Judge, Kansas Court of Appeals; (FNU)
WAHL, Judge, Kansas Court of Appeals; (FNU) GREENE, Judge, Kansas Court of Appeals;
MICHAEL B. BUSER, Judge, Kansas Court of Appeals; STEVEN A. LEBEN, Judge, Kansas
Court of Appeals; KATHRYN A. GARDNER, Judge, Kansas Court of Appeals; BERNADINE
LAMBRERAS, Clerk of the Court, Sedgwick County District Court; LAURA KELLY,
Governor, State of Kansas; DAVID M. UNRUH, Sedgwick County Commissioner; TIM R.
NORTON, Sedgwick County Commissioner; KARL PETERJOHN, Sedgwick County
Commissioner; RICHARD RANZAU, Sedgwick County Commissioner; RICHARD A. EUSON,
Sedgwick County Counselor; JEFF EASTER, Sedgwick County Sheriff; ROGER WERHOLTZ,
Interim Secretary of Corrections, Kansas Department of Corrections; DOUGLAS SH3MA, Clerk
of the Court, Kansas Court of Appeals; WARREN WILBERT, District Court Judge, Sedgwick
County District Court; SAM CROW, U.S. District Court Judge, State of Kansas; DALE
SAFFELS, former U.S. District Court Judge, State of Kansas; RICHARD D. ROGERS, U.S.
District Court Judge, State of Kansas, Defendants - Appellees.
Notice:
PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1
GOVERNING THE CITATION TO UNPUBLISHED OPINIONS.
1

Prior History:
r**ll (D.C. No. 5:18-CV-03254-DDC). (D. Kan.).
Loggins v. Pilshaw. 2020 U.S. Dist. LEXIS 6564. 2020 WL 224542 (D. Kan.. Jan. 15. 2020)

Core Terms
immunity, district court, damages, sentence, invalid, affirmative defense, recuse, quasi-judicial,
prosecutorial, imprisonment, convictions, aggravated, grounds, motions
Counsel: KEVIN D. LOGGINS, SR., Plaintiff - Appellant, Pro se, Hutchinson, KS.
Judges: Before HARTZ, McHUGH, and CARSON, Circuit Judges.
Opinion by: Harris L Hartz

Opinion
r*3251 ORDER AND JUDGMENTS!"
Kevin D. Loggins Sr., a Kansas prisoner proceeding pro se, appeals from the district court's
dismissal of his claims brought under 42 U.S.C. $ 1983 and the court's denial of various motions.
Exercising jurisdiction under 28 U.S.C. § 1291, we affirm.
I. BACKGROUND & PROCEDURAL HISTORY
"Loggins is a prisoner in the custody of the Kansas Department of Corrections (KDOC). He was
sentenced in 1996 to a prison term of 678 months "based on his Kansas state convictions for
aggravated robbery, aggravated kidnaping, aggravated burglary, aggravated sexual battery, and
criminal possession of a firearm," all arising out of "two residential armed robberies in 1995."
Loggins v. Hannigan. 45 F. App'x 846. 848 (10th Cir. 20021.
In September 2018, Loggins filed suit under 42 U.S.C. § 1983, raising claims related to that
conviction. His core allegations are as follows: Sedgwick County (Kansas) District Judge
Rebecca L. Pilshaw, who presided over his prosecution, "abandoned] her color as a neutral,
detached and impartial adjudicator and became an advocate and partisan for the prosecutor[']s
case," R. vol. 1 at 9, when she f**21 added a charge of aggravated sexual battery to the criminal
complaint, despite the prosecution "declin[ing]" to add such a charge on its own, id. A different
judge arraigned him later that day on the new charge, although the amended criminal complaint
had not yet been filed and Loggins was not present for that arraignment. After trial, Judge
Pilshaw and her court reporter "sploitated" (i.e., spoliated) the record to conceal Judge Pilshaw's
advocacy, and the "sploitated portion of the record was not made available" to Loggins until
2003. Id. at 17. Also, the court reporter for the arraignment never produced her transcripts,
despite certifying to the Kansas Court of Appeals that she had.
2

Based on these accusations, Loggins sued Judge Pilshaw, the two court reporters, the Sedgwick
County clerk of court, the assistant district attorney who prosecuted him, the county sheriff who
delivered him into KDOC custody, the secretary of KDOC, the clerk of the Kansas Court of
Appeals, the governor of Kansas, and apparently every state and federal judge who worked on his
direct appeal, postconviction motions, postconviction appeals, and federal habeas proceedings.
Loggins claims that all these defendants participated 1**31 in or acted upon "void judgments"
3261 against him, given "the structu[r]al defect in the case [apparently referring to Judge
Pilshaw's alleged bias, as evidenced by her sua sponte insertion of the sexual battery charge] and
the trial court[']s failure to properly invoke the court[']s jurisdiction [referring to his arraignment
in absentia on a not-yet-filed amended complaint]." Id. at 18. He also sued the Sedgwick County
commissioners and county attorney, alleging they participated in creating a policy that led to
"destruction of the documents which could establish that plaintiffs rights [were] violated." Id. at
14. He did not elaborate on the nature of these documents or the circumstances of their
destruction.
Loggins claimed violations of his Fifth, Sixth, Eighth, Thirteenth, and Fourteenth Amendment
rights, and the Kansas Bill of Rights. He requested monetary damages from various defendants,
"injunctive relief... to release [him] from the false imprisonment," and a declaration that his
convictions are "nullities." Id. at 25.
Acting under 28 U.S.C. § 1915AfaL the district court screened Loggins's amended complaint and
dismissed the case on the following grounds:
• Loggins cannot seek release from confinement—a habeas remedy—through a § 1983
action;
• most of the defendants are protected by immunity: f**41 the Eleventh Amendment bars
relief to the extent Loggins seeks damages from a state official in his or her official
capacity; judicial immunity bars relief against the federal and state judges named as
defendants; prosecutorial immunity bars relief against the assistant district attorney who
prosecuted him; and quasi-judicial immunity bars relief against the sheriff who
transported him to KDOC custody, and against the KDOC secretary;
• Loggins cannot seek damages for his allegedly unlawful imprisonment without first
invalidating his sentence through other means (such as habeas).
In light of the dismissal on these grounds, the court denied Loggins's motions for summary and
default judgment as moot. It also denied his motion to change venue, a motion for a temporary
restraining order and preliminary injunction, a motion for hearing, a motion to recuse the district
judge, and various motions seeking the status of his case.
II. ANALYSIS
A. Screening Disposition (28 U.S.C. § 1915AJ
1. Legal Standards
3

Section 1915A requires the federal district courts to "review ... a complaint in a civil action in
which a prisoner seeks redress from a governmental entity or officer or employee of a
governmental entity." 28 U.S.C. $ 1915A(a). The court is to "identify cognizable f**51 claims or
dismiss the complaint, or any portion of the complaint, if the complaint—(1) is frivolous,
malicious, or fails to state a claim upon which relief may be granted; or (2) seeks monetary relief
from a defendant who is immune from such relief." Id. § 1915A(b).
"We review de novo a § 1915A dismissal for failure to state a claim. See Young v. Davis. 554
F.3d 1254. 1256 (10th Cir. 2009). This court has never stated an explicit standard for reviewing §
1915A dismissals based on immunity. \1 "Outside the § 1915A context, however, we review de
novo a district court's determination regarding each of the immunities at issue here. See Arbogast
v. Kan.. Den't of Labor. 789 F.3d 1174. 1181 0 Oth Cir. 20151 (Eleventh Amendment); Crowe &
Dunlevy, P.C. v. Stidham. 640 F.3d 1140. 1153 (10th Cir. 2011') (judicial); Guttman v. Khalsa.
446F.3d 1027, 1033 f*3271 (10th Cir. 2006) (prosecutorial and quasi-judicial). We see no reason
to do otherwise in the § 1915A context.
2. Application
"The district court's first ground for dismissal was the rule of Preiser v. Rodriguez: "[W]hen a
state prisoner is challenging the very fact or duration of his physical imprisonment, and the relief
he seeks is a determination that he is entitled to immediate release or a speedier release from that
imprisonment, his sole federal remedy is a writ of habeas corpus," 411 U.S. 475, 500. 93 S. Ct.
1827. 36 L. Ed. 2d 439 (19731. The ruling was correct. \1 "Preiser forecloses Loggins's § 1983
claims seeking an injunction ordering his release from prison and a declaratory judgment that his
convictions T**61 were nullities. See Wilkinson v. Dotson. 544 U.S. 74. 81. 125 S. Ct. 1242. 161
L. Ed. 2d 253 (2005k Duncan v. Gunter. 15 F.3d 989. 991 (10th Cir. 19941.
The district court's other two grounds for dismissal disposed of the claims for damages. The court
ruled that most of the defendants are protected from liability by Eleventh Amendment, judicial,
prosecutorial, dr quasi-judicial immunity.' Only one argument by Loggins against this ruling
merits a response. He contends that the district court should not have raised these issues under §
1915A because immunities are affirmative defenses. \1 "But even if immunities are affirmative
defenses and district courts should not ordinarily dismiss a complaint based on an affirmative
defense, $ 1915A states that "the court shall... dismiss the complaint, or any portion of the
complaint, if [it] ... seeks monetary relief from a defendant who is immune from such relief." 28
U.S.C. § 1915A(b)(2) (emphasis added). This fairly recent statutory provision overrides any
contrary rule under the Federal Rules of Civil Procedure. See Autoskill v. Nat'l Educ. Support
Svs.. 994 F.2d 1476.1485 (10th Cir. 1993). overruled on other grounds by TW Telecom
Holdings Inc, v. Carolina Internet Ltd.. 661 F.3d 495. 496-97 (10th Cir. 2011). "Thus, the
district court properly raised and ruled on the issues of Eleventh Amendment, judicial,
prosecutorial, and quasi-judicial immunity. See, e.g., Payton. 2020 U.S. App. LEXIS 32381,
2020 WL 6058589. at *2 (affirming § 1915A dismissal on judicial, prosecutorial, and Eleventh
Amendment immunity grounds); Coleman v. Farnsworth, 90 F. App'x 313, 317-18 (10th Cir.
2004) (affirming $ 1915A dismissal on quasi-judicial immunity grounds).

4

"Although [** 71 not every defendant was held to be immune from liability by the district court,
the court's third ground for dismissal does apply to them all. Under Heck v. Humphrey, "[if] a [§
19831 judgment in favor of the plaintiff would necessarily imply the invalidity of his conviction
or sentence ..., the complaint must be dismissed unless the plaintiff can demonstrate that the
conviction or sentence has already been invalidated," 512 U.S. 477, 487. 114 S. Ct. 2364. 129 L.
Ed. 2d 383 (1994).
"This rule obviously applies but, as with the immunity issue, Loggins argues that the Heck issue
is an affirmative defense that the district court should not have raised sua sponte. We disagree.
Rather than creating an affirmative defense, "Heck adds an element to the claim. As the
Supreme Court explained:
"[T]o recover damages for allegedly unconstitutional conviction or imprisonment, or for
other harm caused by actions whose unlawfulness would render a conviction or sentence
invalid, a § 1983 plaintiff must prove that the conviction or sentence has been reversed on
direct appeal, expunged by executive order, declared invalid by a state tribunal authorized
r*3281 to make such determination, or called into question by a federal court's issuance of
a writ of habeas corpus, 28 U.S.C. § 2254. A claim for [**81 damages bearing that
relationship to a conviction or sentence that has not been so invalidated is not cognizable
under § 1983.
"Heck. 512 U.S. at 486-87 (additional emphasis added; footnote omitted). We have accordingly
recognized that "a plaintiff c[an]not bring a civil-rights claim for damages under $ 1983 based on
actions whose unlawfulness would render an existing criminal conviction invalid." Havens v.
Johnson. 783 F.3d 776. 782 (10th Cir. 2015) (emphasis added). "See, e.g., Payton v. Ballinger.
No. 20-3101. 831 F. App’x 898. 2020 U.S. Ann. LEXIS 32381. 2020 WL 6058589. at *2 (10th
Cir. Oct. 14. 2020s) (analyzing § 1915A Heck dismissal under failure-to-state-a-claim rubric); cf.
Higgins v. City of Tulsa. 103 F. App'x 648, 652 (10th Cir. 2004s) (affirming a sua sponte
dismissal under Fed. R. Civ. P. 12(b)(6) when the Heck infirmity was "patently obvious"
(internal quotation marks omitted)). Since all the damages sought by Loggins are based on
actions by defendants that allegedly caused his convictions or prevented the convictions from
being set aside, the district court properly applied Heck to dismiss his claims.
In sum, we see no error in the district court's § 1915A disposition.
B. Recusal
"Loggins also challenges the district judge's denial of his motion to recuse. "We ... review a
district court's denial of a motion to recuse or disqualify a judge for abuse of discretion." Mathis
v. Huff & Puff Trucking. Inc.. 787 F.3d 1297.1308 (10th Cir. 2015). Loggins's argument for
recusal rests on his belief that the district judge showed bias by raising affirmative defenses [**91
on defendants' behalf. "But his rulings are not evidence of bias. See, e.g., Liteky v. United
States. 510 U.S. 540. 555. 114 S. Ct. 1147. 127 L. Ed. 2d 474 (19941 ("[Judicial rulings alone
almost never constitute a valid basis for a bias or partiality motion."); Green v. Branson. 108 F.3d
1296. 1305 (10th Cir. 1997J ("[AJdverse rulings cannot in themselves form the appropriate
grounds for disqualification." (internal quotation marks omitted)). And in any event, as we have
5

just explained, the judge ruled appropriately. He did not abuse his discretion when he denied
Loggins's motion to recuse.
C. Other Motions
Finally, Loggins challenges the district court's denial of his summary-judgment motion, defaultjudgment motion, motion for TRO and preliminary injunction, and motion to change venue. Our
affirmance of the district court's § 1915A dismissal moots these issues, so we need not address
them.
III. CONCLUSION
We affirm the district court's judgment.
Entered for the Court
Harris L Hartz
Circuit Judge
Footnotes
After examining the briefs and appellate record, this panel has determined unanimously
that oral argument would not materially assist in the determination of this appeal. See
Fed. R. App. P. 34('al('2L 10th Cir. R. 34.1(G). The case is therefore ordered submitted
without oral argument. This order and judgment is not binding precedent, except under
the doctrines of law of the case, res judicata, and collateral estoppel. It may be cited,
however, for its persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R.
32.1.

6

*

*

APPENDIX-B

Loggins v. Pilshaw, 2020 U.S. Dist. LEXIS
6564
Copy Citation
United States District Court for the District of Kansas
January 15, 2020, Decided; January 15, 2020, Filed
Case No. 18-3254-DDC
Reporter
2020 U.S. Dist. LEXIS 6564 * | 2020 WL 224542
KEVIN D. LOGGINS, SR., Plaintiff, v. REBECCA L. PILSHAW, et al., Defendants.
Subsequent History: Affirmed by Loggins v. Pilshaw. 2020 U.S. App. LEXIS 37486 110th Cir.
Kan., Dec. 1, 20201
Prior History: Loggins v. Pilshaw. 2019 U.S. Dist. LEXIS 51106, 2019 WL 1384203 (D. Kan..
Mar. 27, 2019)

Core Terms
Recuse, amended complaint, immunity, allegations, motions, denies, screen, bias, government
entity, pro se, damages, Amend
Counsel: f*H Kevin D. Loggins, Sr., Plaintiff, Pro se, Hutchinson, KS.
' Judges: Daniel D. Crabtree, United States District Judge.
Opinion by: Daniel D. Crabtree

Opinion
MEMORANDUM AND ORDER
Pro se plaintiff" Kevin D. Loggins, Sr., brings an Amended Complaint (Doc. 27) and the
following motions before the court: Motion to Recuse Judge Daniel Crabtree and to Remove
Cases from Topeka Division for Lack of Impartiality & Inability to Receive a Fair Hearing (Doc.
26); Motion for Status of Plaintiffs Motion to Recuse Judge Daniel Crabtree (Doc. 33); Motion
for Summary Judgment (Doc. 35); Motion Seeking Adjudication of Plaintiffs Motion to Recuse
Judge Daniel Crabtree (Doc. 38); Motion Seeking Default Judgment (Doc. 39); and Motion
Seeking Status of Plaintiffs Motion to Recuse Judge Daniel Crabtree (Doc. 41).
First, the court denies plaintiffs Motion to Recuse (Doc. 26) for reasons explained below.
1

Second, the court concludes that plaintiffs Amended Complaint (Doc. 27) fails to address the
deficiencies the court identified in his first Complaint (Doc. 1). The court thus dismisses the case
for failure to state a claim. The court denies the remainder of plaintiffs motions as moot (Docs.
33, 35, 38, 39, & 41).
I. Procedural History T*21
On September 25, 2018, plaintiff—a prisoner at Hutchinson Correctional Facility—filed a
Complaint under 42 U.S.C. $ 1983. He sued 38 defendants." Doc. 1. Plaintiff also brought seven
motions as part of his § 1983 claim, including a Motion for Leave to Amend Complaint (Doc.
18). Plaintiff sought leave to amend his Complaint so that he could "add an additional count for
conduct of Judge James Fleetwood, and request punitive damages." Doc. 18 at 1.
The court screened plaintiffs complaint under 28 U.S.C. § 1915A(al. See generally Doc. 20. This
statute requires the court to screen complaints brought by prisoners seeking relief against a
governmental entity or an officer or an employee of a governmental entity. The court must
dismiss any complaint (or any portion of a complaint) if it presents claims that are legally
frivolous or malicious; that fail to state a claim upon which relief may be granted; or that seek
monetary relief from a defendant who is immune from such relief. 28 U.S.C. § 1915A(b)(l)-(2).
Plaintiffs Complaint did not survive screening. Doc. 20 at 16-17. The court identified the
deficiencies in plaintiffs Complaint but granted him leave to file a complete and proper amended
complaint. Id. at 17.
On April 30, 2019, plaintiff filed an Amended Complaint f*31 (Doc. 27). He also has filed the
following motions: Motion to Recuse Judge Daniel Crabtree (Doc. 26); Motion for Status of
Plaintiffs Motion to Recuse Judge Daniel Crabtree (Doc. 33); Motion for Summary Judgment
(Doc. 35); Motion Seeking Adjudication of Plaintiffs Motion to Recuse Judge Daniel Crabtree
(Doc. 38); Motion Seeking Default Judgment (Doc. 39); and Motion Seeking Status of Plaintiffs
Motion to Recuse Judge Daniel Crabtree (Doc. 41).
II. Recusal Motion
Plaintiff seeks to remove the judicial officer assigned to this case. He argues that the assigned
judge has shown a "lack of neutrality and impartiality." Doc. 26 at 13. He asserts that the court's
"claims of defi[ci]encies in plaintiff[']s [Cjomplaint are refuted by the record. In fact Judge
Daniel Crabtree argues affirmative defenses for the [ ] defendants who[ ] have yet to respond to
the [Cjomplaint. ..." Id. at 2. Essentially, plaintiff seeks recusal because the court's March 27,
2019 Order granting plaintiffs Motion for Leave to Amend Complaint identified deficiencies in
plaintiffs Complaint. The Order explained those deficiencies and directed plaintiff to address
them if he filed an Amended Complaint.
"Two statutes govern f*41 judicial recusal, 28 U.S.C. §§ 144 and 455. Burleson v. Sprint PCS
Group. 123 F. App'x 957. 959 (10th Cir. 2005). For recusal under § 144. the moving party must
submit an affidavit showing bias and prejudice. "Id. (citing Glass v. Pfeffer. 849 F.2d 1261.
1267 (10th Cir. 198811. The bias and prejudice must be personal, extrajudicial, and identified by
"facts of time, place, persons, occasions, and circumstances." Id. at 960 (quoting Hinman v.
Rogers. 831 F.2d 937, 939 (TOth Cir. 19871'). These facts will be accepted as true, but they must
2

be more than conclusions, rumors, beliefs, and opinions. Id. Without an affidavit showing bias or
prejudice and proper identification of events manifesting a personal and extrajudicial bias,
plaintiff cannot support a request for recusal under 28 U.S.C. § 144.
"Alternatively, under 28 U.S.C. § 455. a judge must disqualify himself "in any proceeding in
which his impartiality might reasonably be questioned," or "[wjhere he has a personal bias or
prejudice concerning a party ...." 28 U.S.C. $ 455(a) & (b)(1). The test for determining
impartiality is an objective one, based on a judge's "outward manifestations and reasonable
inferences drawn therefrom." Nichols v. Alley. 71 F.3d 347, 351 f 10th Cir. 1995) (citation
omitted).
Plaintiff here alleges no facts suggesting personal bias or prejudice. "Plaintiff appears to
interpret the court's March 27, 2019 Order as adverse to him because it identified deficiencies in
his Complaint. But adverse rulings do not provide a T*51 reason for recusal. See Green v.
Branson. 108 F.3d 1296. 1305 (10th Cir. 1997) (stating that "adverse rulings 'cannot in
themselves form the appropriate grounds for disqualification"' (quoting Green v. Dorrell, 969
F.2d 915. 919 f 10th Cir. 1992))). In sum, plaintiff has failed to establish any grounds to remove
the assigned judge from this case. The court thus denies plaintiffs Motion to Recuse (Doc. 26).
Also, the court denies as moot plaintiffs motions seeking a status update on his recusal motion
(Docs. 33, 38, & 41).
III. Plaintiffs Complaints
Generally, plaintiff brings this § 1983 action alleging that he is incarcerated wrongfully because
of errors committed in his underlying criminal proceeding. First, the court recites the legal
standard that applies to pro se prisoners seeking relief against a governmental entity or officer.
The court then notes the deficiencies it already has identified in plaintiffs Complaint. Finally, the
court analyzes plaintiffs Amended Complaint. For reasons explained below, plaintiffs Amended
Complaint will not survive screening either.
A. Statutory Screening of Prisoner Complaints
The court is required to screen complaints brought by prisoners seeking relief against a
governmental entity or an officer or an employee of a governmental entity. 28 U.S.C. §
1915A(a). The court must f*61 dismiss a complaint (or any portion of it) if the complaint raises
claims that are legally frivolous or malicious; that fail to state a claim upon which relief may be
granted; or that seek monetary relief from a defendant who is immune from such relief. 28 U.S.C.
§ 1915A(b)(l)-(2).
To state a claim under § 1983, a plaintiff must allege the violation of a right secured by the
Constitution and laws of the United States, and must show that the alleged deprivation was
committed by a person acting under color of state law." West v. Atkins, 487 U.S. 42. 48. 108 S.
Ct. 2250, 101 L. Ed. 2d 40 (19881 (citations omitted); Northington v. Jackson, 973 F.2d 1518,
1523 (10th Cir. 1992). A court liberally construes a pro se complaint and applies "less stringent
standards than formal pleadings drafted by lawyers." Erickson v. Pardus, 551 U.S. 89, 94, 127 S.
Ct. 2197, 167 L. Ed. 2d 1081 12007). Also, the court accepts all well-pleaded allegations as true.
It ft

3

Anderson v. Blake, 469 F.3d 910, 913 flOth Cir. 2006V "But, "when the allegations in a
complaint, however true, could not raise a claim of entitlement to relief," dismissal is
appropriate. Bell Atl. Corp. v. Twombly. 550 U.S. 544, 558. 127 S. Ct. 1955. 167 L. Ed. 2d 929
(2007V
"A pro se litigant's "conclusory allegations without supporting factual averments are insufficient
to state a claim upon which relief can be based." Hall v. Bellmon. 935 F.2d 1106, 1110 (10th Cir.
19911. Although this standard "does not require 'detailed factual allegations,"' it demands more
than "[a] pleading that offers 'labels and conclusions' or 'a formulaic recitation of the elements of
a cause of action'" T*71 which, as the Supreme Court has explained, simply "will not do."
Ashcroft v. Iqbal. 556 U.S. 662. 678. 129 S. Ct. 1937. 173 L. Ed. 2d 868 (20091 (quoting
Twombly. 550 U.S. at 5551. In short, the court need not "accept as true a legal conclusion
couched as a factual allegation." Twombly. 550 U.S. at 557 (quoting Papasan v. Allain. 478 U.S.
265. 286. 106 S. Ct. 2932. 92 L. Ed. 2d 209 (198611 (internal quotation omitted).
"The Tenth Circuit has explained "that, to state a claim in federal court, a complaint must
explain what each defendant did to [the pro se plaintiff]; when the defendant did it; how the
defendant's action harmed [the plaintiff]; and, what specific legal right the plaintiff believes the
defendant violated." Nasious v. Two Unknown B.I.C.E. Agents, 492 F.3d 1158. 1163 (10th Cir.
20071. The court "will not supply additional factual allegations to round out a plaintiffs
complaint or construct a legal theory on a plaintiffs behalf." Whitney v. New Mexico. 113 F.3d
1170. 1173-74 (10th Cir. 19971 (citation omitted).
"Our Circuit also has held that the Supreme Court's decisions in Twombly and Erickson gave
rise to a new standard of review for § 1915(el(21('Bl('iil dismissals. See Kay v. Bemis. 500 F.3d
1214, 1218 (10th Cir. 20071 (citations omitted); see also Smith v. United States. 561 F.3d 1090.
1098 (10th Cir. 20091. As a result, courts must "look to the specific allegations in the complaint
to determine whether they plausibly support a legal claim for relief." Kay, 500 F.3d at 1218
(citation omitted). \1 "Under this new standard, "a plaintiff must nudge his claims across the line
from conceivable to plausible." Smith. 561 F.3d at 1098 (internal quotation marks and citation
omitted). "Plausible" 1*81 in this context does not mean "likely to be true." Instead, it refers "to
the scope of the allegations in a complaint: if they are so general that they encompass a wide
swath of conduct, much of it innocent," then the plaintiff has not "nudged [his] claims across the
line from conceivable to plausible." Robbins v. Oklahoma. 519 F.3d 1242.1247 (10th Cir. 2008]
(citing Twombly. 550 U.S. at 570).
B. Plaintiffs First Complaint (Doc. 1)
On January 24,2019, plaintiff filed a Motion Seeking Leave to Amend the Complaint (Doc. 18).
Plaintiff asked to add "an additional count for conduct of Judge James Fleetwood, and request
punitive damages." Doc. 18 at 1. The court granted plaintiffs motion, but identified the following
deficiencies in his original Complaint and ordered plaintiff to address those deficiencies in an
Amended Complaint.
1. Habeas Nature of the Claims
4

The court found that plaintiff had brought his claims under 42 U.S.C. § 1983 improperly. Doc.
20 at 7. The court explained that, to the extent plaintiff sought relief that would result in an
immediate or speedier release from prison, he must bring those claims in a petition for a writ of
habeas corpus, not under § 1983. Id. at 6. The court informed plaintiff that if he "elects to file an
Amended Complaint, he must identify whether he asks 1*91 for relief besides an order releasing
him from confinement. If plaintiff seeks such relief, he must identify it precisely and explicitly."
Id. at 8.
2. Heck Bar
"The court found that the Heck rule barred plaintiffs claims for damages based on his challenge
to his state court convictions and sentences. Doc. 20 at 8-9 (citing Heck v. Humphrey. 512 U.S.
477. 487.114 S. Ct. 2364. 129 L. Ed. 2d 383 (19941). The Heck rule prevents litigants from
using a § 1983 action to challenge their conviction or sentence without complying with the more
stringent exhaustion requirements for habeas actions. "Johnson v. Pottawotomie Tribal Police
Dep't. 411 F. App'x 195 . 198 (TOth Cir. 2011). Plaintiff failed to show that his conviction and
sentence ever were invalidated. Doc. 20 at 9. The court directed plaintiff to address this issue in
his Amended Complaint. Id.
3. Immunities
The court found that four immunity doctrines—Eleventh Amendment immunity, judicial
immunity, prosecutorial immunity, and quasi-judicial immunity—barred the claims in plaintiffs
original Complaint. Id. at 9-13. The court advised plaintiff that any claim for money damages
against state officials in their official capacity was subject to dismissal on sovereign immunity.
Id. at 11. The court noted that it was "ambiguous whether plaintiff seeks damages against a state
official in her official or individual capacity" and thus directed plaintiff to f* 101 "resolve this
uncertainty if he chooses to file an Amended Complaint." Id.
Plaintiffs claims against federal and state judges were subject to dismissal based on judicial
immunity. Id. Since plaintiffs Complaint did not "suggest that any of the judges he ha[d] sued
acted outside their judicial capacity," the court directed plaintiff to "address this issue in his
Amended Complaint." Id. at 12. Prosecutorial immunity barred plaintiffs claims against the
assistant district attorney in his criminal case. Id. at 12. And, finally, quasi-judicial immunity
barred claims against Sheriff Jeff Easter and KDOC Secretary Roger Werholtz. Id. The court
permitted plaintiff to amend his complaint to address these immunity issues. Id.
4. State Law and Criminal Claims
Plaintiffs Complaint alleged that Judge Pilshaw and Judge Owens violated section 10 of the
Kansas Constitution Bill of Rights. Doc. 1 at 12,14; Doc. 20 at 13. The court explained that
"Section 1983 is not a vehicle to vindicate a state law violation." Doc. 20 at 13. Plaintiffs
Complaint also asked the court to fine or imprison several defendants for obstructing justice
under 18 U.S.C. §§ 1512 and 1519 and the Sarbanes-Oxley Act. Doc. 1 at 18, 20; Doc. 20 at 13.
The court explained that §§ 1512 and 1519 are criminal statutes and do not provide a f* 111
5

private right of action. Doc. 20 at 13. And, plaintiff failed to explain which provision of the
Sarbanes-Oxley Act defendants had violated and he never provided any authority suggesting the
Act permits a private right of action. Id. The court directed plaintiff to address these deficiencies
in his Amended Complaint. Id.
C. Plaintiffs Amended Complaint (Doc. 27)
Plaintiff has filed an Amended Complaint (Doc. 27). His Amended Complaint is nearly identical
to his first Complaint. The court has identified just these amendments. They are:
• Plaintiff has replaced defendant Jeff Colyer with current Kansas Governor Laura Kelly.
Compare Doc. 1 at 7 with Doc. 27 at 7.
• Plaintiff has replaced defendant Joseph Norwood with current Secretary for the Kansas
Department of Corrections, Roger Werholtz. Compare Doc. 1 at 8 with Doc. 27 at 8.
• Plaintiff has provided additional information about defendant Judge James Fleetwood
(Doc. 27 at 10) and has added a claim (Count 10) against Judge Fleetwood. Doc. 27 at 17.
Plaintiff alleges that Judge Fleetwood "acted without jurisdiction" and "afforded the case
not even the basic fundamental right to procedural due process." Doc. 27 at 17. Judge
Fleetwood "did f* 121 so to continue the illegal and false imprisonment of plaintiff with
malicious intent and depraved indifference." Id.
None of these amendments correct the deficiencies the court identified in its March 27, 2019
Order. Plaintiff has failed to identify precisely and explicitly the relief he seeks for his § 1983
claim, as the court directed. Doc. 20 at 8. Plaintiffs Amended Complaint never addresses the
Heck rule or immunity issues the court identified. Id. at 8-13. And, plaintiff hasn't amended his
state law or criminal claims. Id. at 13. Plaintiffs Amended Complaint thus fails to state a claim
upon which the court can grant relief. So, the court dismisses the case under 28 U.S.C. $
1915A(b).
IV. Conclusion
The court denies plaintiffs Motion to Recuse (Doc. 26) because plaintiff fails to establish any
ground to remove the assigned judge from the case. The court dismisses plaintiffs Amended
Complaint (Doc. 27) because plaintiff has failed to correct the deficiencies the court identified
and explained in its previous Order (Doc. 20). The Amended Complaint thus fails to state a
plausible claim for relief and the case is subject to dismissal under § 1915A(b). The court denies
as moot plaintiffs other motions: Motion for Status of Plaintiffs f*131 Motion to Recuse Judge
Daniel Crabtree (Doc. 33); Motion for Summary Judgment (Doc. 35); Motion Seeking
Adjudication of Plaintiffs Motion to Recuse Judge Daniel Crabtree (Doc. 38); Motion Seeking
Default Judgment (Doc. 39); and Motion Seeking Status of Plaintiffs Motion to Recuse Judge
Daniel Crabtree (Doc. 41).
IT IS THEREFORE ORDERED BY THE COURT THAT plaintiffs Motion to Recuse (Doc. 26)
is denied.
6

IT IS FURTHER ORDERED THAT plaintiffs case is dismissed for failure to state a claim.
IT IS FURTHER ORDERED THAT plaintiffs Motion for Status of Plaintiffs Motion to Recuse
Judge Daniel Crabtree (Doc. 33); Motion for Summary Judgment (Doc. 35); Motion Seeking
Adjudication of Plaintiff s Motion to Recuse Judge Daniel Crabtree (Doc. 38); Motion Seeking
Default Judgment (Doc. 39); and Motion Seeking Status of Plaintiffs Motion to Recuse Judge
Daniel Crabtree (Doc. 41) are denied as moot.
IT IS SO ORDERED.
Dated this 15th day of January, 2020, at Kansas City, Kansas.
/s/ Daniel D. Crabtree
Daniel D. Crabtree
United States District Judge
Footnotes
"Because plaintiff proceeds pro se, the court construes his pleadings liberally. See Hall v.
Bellmon. 935 F.2d 1106,1110 f 10th Cir. 19911 (holding that courts must construe pro se
litigant's pleadings liberally and hold them to a less stringent standard than formal
pleadings drafted by lawyers). But, under this standard, the court does not assume the role
as plaintiffs advocate. "Garrett v. Selby Connor Maddux & Janer. 425 F.3d 836. 840
110th Cir. 2005). The court does not construct arguments for plaintiff or search the record.
Id.

■

Defendants included multiple state court and federal judges; court reporters; an assistant
district attorney; the Clerk of the Sedgwick County District Court; the Governor of the
State of Kansas; Sedgwick County Commissioners; the Sedgwick County Counselor; the
Sedgwick County Sheriff; the Secretary of Corrections for the Kansas Department of
Corrections; and the Clerk of the Kansas Court of Appeals. Doc. 1 at 1-10; Doc. 20 at 2.

7

1

APPENDIX-C

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

FILED
United States Court of Appeals
Tenth Circuit
May 14, 2021
Christopher M. Wolpert
Clerk of Court

KEVIN D.LOGGINS, SR.,
Plaintiff - Appellant,

No. 20-3007
(D.C. No. 5:18-CV-03254-DDC)
(D. Kan.)

v.
REBECCA L. PILSHAW, District Court
Judge, Sedgwick County District Court, et
al.,
Defendants - Appellees.
ORDER

Before HARTZ, McHUGH, and CARSON, Circuit Judges.
Appellant's petition for rehearing is denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

Additional material
from this filing is
available in the
Clerk's Office.

V___

